June 14, 2011

PATRICK R. DONAHOE
POSTMASTER GENERAL, CHIEF EXECUTIVE OFFICER

ANTHONY J. VEGLIANTE
CHIEF HUMAN RESOURCES OFFICER AND EXECUTIVE VICE PRESIDENT

GUY COTTRELL
CHIEF POSTAL INSPECTOR

MARIE THERESE DOMINGUEZ
VICE PRESIDENT, GOVERNMENT RELATIONS AND PUBLIC POLICY

SUBJECT: Audit Report – New Approaches to Reduce Costs
         (Report Number FF-AR-11-009)

This report presents the results of our audit to determine whether the U.S. Postal
Service can implement new approaches to reduce costs (Project Number
10BO010FF000). The objective of the audit was to evaluate Postal Service
opportunities to increase efficiency and reduce costs associated with U.S. Postal
Inspection Service’s activities and armed security forces, postage stamp management,
and employee benefits. This self-initiated audit addresses financial risk. See Appendix A
for additional information about this audit.

In fiscal year (FY) 2010, the Postal Service continued to see a decline in mail volume
and revenues, resulting in a loss of nearly $8.5 billion. This was due to the recent
recession, continuing economic pressures, migration of mail to electronic media, and
mandatory prefunding of retiree health benefits. The Postal Service has initiated
unprecedented cost cutting in recent years, saving more than $9 billion in FYs 2009 and
2010 alone, primarily by cutting workhours, renegotiating contracts, and significantly
decreasing capital spending. The Postal Service has also sought congressional relief in
the form of restructuring the payments to the retiree health benefits fund, flexibility in
closing Post Offices, and the ability to deliver mail less frequently. Without substantial
and continued cost reductions, the FY 2011 loss is expected to be comparable to or
larger than the FY 2010 loss.
New Approaches to Reduce Costs                                             FF-AR-11-009




Conclusion

The Postal Service has opportunities to save $143 million annually and as much as $1.4
billion over the next 10 years, by reducing costs for investigative activities and armed
security forces, expanding the Forever® stamp program, and reducing employee benefits
to align with other federal government agencies.

Reduce Postal Service Costs for Investigative Activities

The Postal Inspection Service conducts investigations that are not inherently related to
Postal Service operations or mission. We found that more than 34 percent of
investigative activities do not directly support protection of Postal Service assets, Postal
Service employees, or the mail system. Further, by pursuing work outside of these core
areas, the Postal Inspection Service has moved away from its primary responsibility to
protect the Postal Service, secure the nation's mail system and ensure public trust in the
mail. These non-postal investigative activities involve areas where other agencies have
primary jurisdiction; the casework benefits all Americans, not solely postal ratepayers;
or the work does not align with the mission of the Postal Service. Eliminating these
activities could realize annual cost savings of $77 million or $766 million over the next
10 years. For example:

   The Postal Inspection Service expended approximately                  workhours in mail
   fraud investigations through February 2010. However, according to the U.S.
   Attorney's Criminal Resource Manual, the Federal Bureau of Investigation (FBI) has
   primary investigative jurisdiction for mail fraud. Mail fraud is the largest single Postal
   Inspection Service program area, yet investigations are not limited to defrauding the
   Postal Service. These cases can be ancillary to other crimes being committed
   against the public, and use of the mail may be incidental to the fraud committed.
   These cases could be handled by the primary investigative agency with jurisdiction.
   Cases in which mail fraud is a significant factor in the crime being committed could
   be handled jointly with the Postal Service.

   The Postal Inspection Service expended nearly                 workhours in mail and
   identity theft. The U.S. Secret Service is the primary federal agency tasked with
   investigating identity theft and fraud and its related activities. These investigations
   often involve investigating other related crimes. The FBI, U.S. Immigration and
   Customs Enforcement (ICE), and the Postal Inspection Service are also empowered
   to investigate identity theft. The Social Security Administration Office of the Inspector
   General might be involved when the crime involves the theft and misuse of Social
   Security numbers.

The U.S. Postal Service Office of Inspector General (OIG) has informally communicated
this concern to the Postal Service and the Postal Inspection Service in the past.
However, the Postal Inspection Service has continued to conduct these investigations.
One alternative the postmaster general should consider is combining all investigative


                                              2
New Approaches to Reduce Costs                                                              FF-AR-11-009



activities of the Postal Inspection Service and OIG into one organization that only
conducts investigations that are inherently related to Postal Service mission and
operations. Although further analysis is needed, the Postal Service could benefit by
expanded investigations of workers’ compensation and contract fraud against the Postal
Service. In addition to the savings identified through expanded investigations in those
areas, combining the organizations could provide efficiencies in reducing duplicate
management and support functions. Further, merging some overlapping program areas,
such as internal and external mail theft, could lead to more effective and cost efficient
investigations. Finally, if consolidated, the combined organization would conduct
investigations that are inherently related to Postal Service operations and missions.
Thus, the consolidation could realize an additional annual cost savings of $15 million or
$146 million over the next 10 years.

We recommend the postmaster general, chief executive officer:

1. Evaluate the efficiencies of consolidating all investigative activities into a single law
   enforcement agency within the U.S. Postal Service, to include eliminating duplicate
   management and support functions and program overlap.

2. Evaluate the savings that would come from discontinuing investigations related to
   areas not inherently related to Postal Service mission and operations, such as mail
   fraud involving a small number of mailpieces associated with a crime in which other
   law enforcement agencies have primary jurisdiction.

Management’s Comments

Management did not agree or disagree with recommendation 1 but stated the
consolidation of investigative activities into a single law enforcement agency is not a
concern at this time. Management also stated the Postal Inspection Service’s
investigative jurisdiction is broader than that of the OIG and that both have combined
jurisdiction over criminal activity internal to the Postal Service; however, they noted
there is no duplication of investigations as ensured by the current designation of
functions. Management suggested that shifting certain investigative functions from OIG
to the Postal Inspection Service may achieve efficiencies and allow the OIG to focus
more on the oversight of law enforcement operations.

Management disagreed with recommendation 2, rejecting the premise that the Postal
Inspection Service carries out investigations not inherently related to the Postal
Service’s mission. Based on a report to evaluate Postal Inspection Service priorities,
resources, and better ways to manage the organization, management cited a Giuliani
Security & Safety report that found nearly all work performed by the Postal Inspection
Service has a relationship to the Postal Service, its employees, facilities, the mail, or its
customers and consumers.1 Based on this report, management does not believe the
OIG has any basis for its claim that 34 percent of the work does not support the

1
 Giuliani Security & Safety LLC, Report to the US Postal Service-Mission Review of the U.S. Postal Inspection
Service, dated June 10, 2009.

                                                         3
New Approaches to Reduce Costs                                          FF-AR-11-009



protection of the Postal Service, its assets, and mail system. Further, management
noted the Postal Inspection Service’s complement has been reduced by 20 percent
since the beginning of FY 2009. Additionally management stated that shared jurisdiction
with law enforcement agencies of other Federal departments does not mean the Postal
Service should cede their investigative role and that mail fraud investigations are core to
the Postal Service’s business. The law authorizes the attorney general with the
postmaster general to request the Postal Inspection Service to investigate violations of
other statutes that have a detrimental effect on Postal Service operations. They stated
that investigation efforts enhance brand image and integrity and public trust in the mail;
and their duties include defense of the nation’s mail system from illegal or dangerous
use. See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments unresponsive to recommendations 1
and 2. We do not believe the comments provide a sufficient basis for dismissing an
evaluation of organizational alternatives that could save scarce Postal Service
resources. However, the objective of this report was to provide the Postal Service with
opportunities to increase efficiency and reduce costs, and the report provides issues for
management’s consideration and study. Although we are not going to pursue these
recommendations through audit resolution, the information below provides additional
perspective in response to management’s comments.

The investigative jurisdiction of the Postal Inspection Service is not necessarily broader
than that of OIG, but may include some duties not currently within the function of the
OIG (such as the security of Postal Service facilities and employees). However, current
statutes provide the OIG with the authority to have primary jurisdiction over all fraud
committed against the Postal Service by external parties. Further, the OIG has
jurisdiction over internal investigations. When Congress amended the Inspector General
Act in 1996 to establish an independent Inspector General for the Postal Service, it
effectively mandated that the Postal Inspection Service cease auditing and investigating
internal criminal matters. Congress was concerned that the combination of management
functions and reporting relationships and investigative and audit responsibilities
prevented the Postal Inspection Service from maintaining independence and objectivity
over internal matters.

Management did not address our finding that Inspection Service activities do not directly
support protection of Postal Service assets, employees, or the mail system, or our
discussion surrounding primary and shared jurisdiction. Even though there may be a
Postal Service nexus to a crime, this does not mean that the Postal Inspection Service
has primary jurisdiction over such matters. In fact, primary jurisdiction often lies with
other law enforcement agencies. Further, we agree that some Postal Inspection Service
mail fraud investigations have some relationship to mail; however, these cases are
usually ancillary to the main crime investigated (committed against others outside the
Postal Service, where the mail was used during the crime). We also recognize that
assisting the attorney general is commendable; however, it may not be the best use of


                                             4
New Approaches to Reduce Costs                                              FF-AR-11-009



scarce Postal Service resources and often results in expenditures of money from
ratepayers being used towards investigations that should more legitimately be funded
by taxpayers.

We did not question the 66 percent of the investigations the Postal Inspection Service
conducts which enhance the brand and public trust, such as those regarding the
security of mail or employees, and illegal or dangerous use of the mail. However, 34
percent of their investigative time consists of investigations relating to identity theft, mail
fraud, child pornography, money laundering, and cyber crimes. These are activities
beneficial to the general public, not just postal customers. Further, the Giuliani Security
& Safety report also determined that nearly 40 percent of Postal Inspection Service
investigations are not clearly aligned with the Postal Service but support other needs
where benefits to the Postal Service are difficult to assess.

Reduce Security Force Costs through Contracting

The Postal Service can reduce costs by contracting for armed security guards.
Currently, postal police officers (PPOs) fulfill those duties. Although, the background
and training requirements for contract security guards are similar to those for PPOs, the
average hourly rate for armed contract security guards is approximately $19 and $12
less than postal police supervisors and PPOs’ fully loaded rates, respectively. Using
armed contract security services would allow the Postal Service to reduce security force
costs as much as $9.5 million annually, or $80 million over the next 10 years, while not
compromising employee security.

We recommend the chief postal inspector:

3. Conduct a review to evaluate the benefits of contracting for armed security services.

4. If the review supports contracting for security, implement a strategy to utilize contract
   staffing to supplement or replace Postal Service security force positions.

Management’s Comments

Management agreed with recommendations 3 and 4 and has initiated a review to
evaluate contracting for armed services. However, management disagreed with the
savings methodology, questioning the accuracy of the hourly rate for craft and
supervisory postal police officers and the number of workhours the Postal Service could
save by contracting out armed security services. Further, management noted there
were legal and labor-relations ramifications of totally contracting out these services that
should be considered. Management agreed to provide other comments relative to the
recommendations once the current review is complete but did not provide an estimated
completion date.




                                               5
New Approaches to Reduce Costs                                        FF-AR-11-009



Evaluation of Management’s Comments

Although management did not provide an expected completion date, the OIG considers
management’s comments responsive to the significant recommendations and corrective
actions should resolve the issues identified in the report. Regarding our methodology
surrounding labor rates and workhours, the OIG analysis was based on the bargaining
PPOs’ and supervisory PPOs’ fully loaded rates in the Postal Service’s National Payroll
Hour Summary Report, Pay Period 20, FY 2009. Using the FY 2009 rates, we then
projected the FY 2010 hourly rates based on the Postal Service Decision Analysis
Report escalation factor for Postal Service employees. The Postal Inspection Service
provided the OIG lists of posts/patrols from each work site, which also included the
posts/patrols operating hours. We estimated the contract hours based on the operating
hours of the posts/patrols provided. We then projected the PPOs’ workhours based on
the Postal Service Productive Workyear Factor.

The number of workhour savings was derived from the difference between the projected
PPOs’ workhours and estimated contract hours. We took individual differences in
security needs at each work sites into consideration and considered the number of
workhours saving calculations to be conservative and reasonable. In addition, the
comparison to U.S. Department of Labor Guard II was for obtaining contract armed
guards’ rates. We understood that contract security guards might not have many of the
same powers given to the postal police and acknowledged that in a footnote to our
report. Further, although the bargaining PPOs are covered by a no-layoff clause, the
Postal Service could still reduce its security force. Cost savings could be realized
through attrition or reassigning employees to other vacancies instead of filling those
vacancies externally.

We acknowledge there will be other legal and labor-relations issues that should be
considered and believe those should be included in the Postal Inspection Service’s
review to evaluate the benefits of contracting for armed security services.

Reduce Postage Costs by Expanding the Forever Stamp Program

In December 2010, the Postal Service announced the expansion of its Forever stamp
program, whereby almost all 1-ounce stamp products issued in 2011 will be issued as
Forever stamps. However, further expansion of the Forever stamp program to coils of
3,000 and 10,000 First-Class Mail® 1-ounce stamp products will allow Postal Service
the readiness and flexibility to respond to changes in economic and customer behavior.

We calculated that the Postal Service will destroy approximately 48,000 coils of 3,000
and 10,000 First-Class™ 1-ounce denominated stamps purchased in FYs 2008 and
2009. We estimate the printing costs for these products at about $445,000. If the Postal
Service implemented the Forever stamp for all First Class, 1-ounce mail products, we
estimate the Postal Service would save approximately $215,000 annually, or $2.2
million over the next 10 years.



                                           6
New Approaches to Reduce Costs                                          FF-AR-11-009




We recommend the vice president, Government Relations and Public Policy:

5. Conduct a review to evaluate the benefits of converting all coils of 3,000 and 10,000
   First-Class 1-ounce denominated stamps to the Forever stamp.

6. If the analysis supports conversion, convert all coils of 3,000 and 10,000 First-Class
   1-ounce denominated stamps to the Forever stamp.

Management’s Comments

Management disagreed with recommendations 5 and 6 and the associated cost
savings. They stated that the customer base for these products differs from those
serviced by the other 1-ounce Forever stamps. Management asserted these large
customers are more likely to purchase stamps or convert permit and postage meter
mailings to stamps to offset rate increases; and arbitrage the price adjustment in their
favor. They noted our methodology was based on prior fiscal year data, which does not
reflect the current demand, production volumes, and distribution network. Management
stated they do not anticipate the same destruction levels as in previous years.

Evaluation of Management’s Comments

The OIG considers management’s comments unresponsive to recommendations 5
and 6. We agree that the customer base is different for the 3,000 and 10,000 stamp
coils. However, we do not believe management comments provide a sufficient basis for
not reviewing the benefits of converting the 3,000 and 10,000 First-Class 1-ounce coil
denominated stamps to the Forever stamp. However, as noted previously, the objective
of this report was to provide the Postal Service with opportunities to increase efficiency
and reduce costs, and the report provides issues for management’s consideration and
study. Although we are not going to pursue these recommendations through audit
resolution, the information below provides additional perspective in response to
management’s comments.

The Postal Service has the ability to control stamp inventories before rate increases to
minimize large mailers from taking advantage of short-term price arbitrage. Further, the
First-Class Mail price increase can be no more than the Consumer Price Index.
Companies would have to decide whether borrowing money to arbitrage stamps that
are not refundable for cash is a better use of funds than investing elsewhere. We
recognize that some large mailers may take advantage of short-term price arbitrage;
however, similar behavior is currently practiced by traditional individual customers
during price increases. Furthermore, maintaining denominated stamps complicates the
inventory management and purchasing process. The Postal Service would benefit by
receiving the revenue in advance and letting the large mailers assume the risk of
maintaining the stamp inventory.




                                            7
New Approaches to Reduce Costs                                          FF-AR-11-009



Management also expressed concern with our cost savings methodology; however, we
considered current customer demand and production volumes by using actual sales
data as of January 2011. We then considered production volumes by removing the
stamps the Postal Service no longer plans on purchasing and applying a ratio to over
purchased stamps based on actual purchased from the suppliers as of January 2011.
We did not apply a factor in our calculation to account for the reduction in the stamp
distribution network because the consolidation only occurred 1 year ago. There was no
past information available to support the impacts on rate changes to the new stamp
network.

Reduce Employee Benefit Costs by Aligning Benefits with Other Federal
Agencies’ Policies

Changes to annual leave exchange (ALE), annual leave carryover, advanced annual
leave, and direct deposit policies would align Postal Service benefits with other federal
agencies’ policies and reduce costs. In total, these changes could save approximately
$43 million annually, or as much as $433 million over the next 10 years.

We recommend the chief human resources officer and executive vice president:

7. Review the benefits of making changes to future employee leave and direct deposit
   policies to save money and align with those used by other federal agencies, and in
   accordance with all applicable laws.

Management’s Comments

Management disagreed with recommendation 7 and the reported savings. Management
stated that most of the savings are attributed to ALE; however, management noted the
report did not establish evidence of overstaffing and the zero replacement of work
performed by first line supervisors and above. Further, management stated the report
did not account for premium pay and higher replacement costs for employees below the
supervisory level; learning curve offsets of replacement work; potential for more full-time
employees to cover a higher rate of paid absence; discontinuation of benefits that
require negotiations with unions and inclusions in pay consultations with management
groups; and the 2011 Postal Service redesign of administrative positions. In addition,
management stated changes to carryover and advanced annual leave are minimal, and
current policy provides value as an employee motivation. They did not address changes
to the direct deposit policy.

Evaluation of Management’s Comments

The OIG considers management’s comments unresponsive to recommendation 7. We
do not believe that management comments provide a sufficient basis for not reviewing
the benefits discussed. However, as noted previously, the objective of this report was to
provide the Postal Service with opportunities to increase efficiency and reduce costs,
and the report provides issues for management’s consideration and study. Although we


                                             8
New Approaches to Reduce Costs                                         FF-AR-11-009



are not going to pursue these recommendations through audit resolution, the
information below provides additional perspective in response to management’s
comments.

During the audit, in consultation with management, we adjusted monetary benefits
before issuing the draft report. We reduced estimated savings by 25 percent to account
for premium and overtime pay. Further, most other federal agencies effectively function
without these types of benefits. The OIG believes the Postal Service can also effectively
manage their workforce if these benefits were discontinued. Regarding staffing levels,
the scope period of our audit was before the postmaster general’s announcement of the
2011 redesign. However, the announcement does not eliminate savings opportunities.
The OIG believes opportunity remains to reduce costs by having employee benefits
align with other federal agencies. Further, suggested changes to annual leave carryover
and advanced annual leave are not minimal. The Postal Service can save $1 million a
year and could have avoided forgiving $12.9 million in advanced annual leave debt
during leave years (LY) 2008 and 2009.

See Appendix B for our detailed analysis of these topics and Appendix C for the details
of the monetary impact.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed for recommendations 3 and 4. These
recommendations should not be closed in the Postal Service’s follow-up tracking
system until the OIG provides written confirmation that the recommendation(s) can be
closed. Because we are not going to pursue recommendations 1, 2, 5, 6, and 7 through
audit resolution, we consider those recommendations closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Field Financial - East, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:    Joseph Corbett
       Corporate Audit and Response Management




                                            9
New Approaches to Reduce Costs                                                            FF-AR-11-009



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is an independent establishment of the Executive Branch mandated
to offer a fundamental service to the American people. Operations are almost
completely self-funded, independent of taxpayer support. In July 2009, the Government
Accountability Office (GAO) listed the Postal Service as one of its “high-risk”
government agencies.2 GAO stated that the Postal Service urgently needs to
restructure to achieve financial viability.

In FY 2010, the Postal Service continued to see a decline in mail volume and revenues,
resulting in a loss of nearly $8.5 billion. This was due to the recent recession, continuing
economic pressures, migration of First-Class Mail to electronic media, and requirements
to pre-fund retiree health benefits. The Postal Service has initiated unprecedented cost
cutting in recent years, saving more than $9 billion in FYs 2009 and 2010 alone,
primarily by cutting workhours, adjusting contracts, and significantly decreasing capital
spending. One area of focus has been the 10-year payment schedule required to fund
retiree health benefits, which includes average annual payments of $5.6 billion. A large
part of the Postal Service’s current debt (and net loss) is a direct result of making these
payments. The Postal Service has sought congressional relief in the form of
restructuring the payments to the retiree health benefits fund, flexibility in closing Post
Offices™, and the ability to deliver mail less frequently. Without substantial and
continued cost reductions, the FY 2011 loss is expected to be comparable to or larger
than the loss in FY 2010 (including its prefunding of retiree health benefits and
excluding any workers’ compensation liability adjustments).

Postal Inspection Service

As the law enforcement, crime prevention, and security arm of the Postal Service, the
Postal Inspection Service is a highly specialized, professional organization performing
investigative and security functions essential to a stable and sound postal system. The
mission of the Postal Inspection Service was to protect the Postal Service, secure the
nation's mail system, and ensure public trust in the mail. During our audit, this mission
was updated. The new mission statement is to support and protect the Postal Service
and its employees, infrastructure, and customers; enforce the laws that defend the
nation’s mail system from illegal or dangerous use; and ensure public trust in the mail.

In 2003, the president established a commission on the Postal Service tasked to identify
the operational, structural, and financial challenges facing the Postal Service; examine
potential solutions; and recommend steps to ensure long-term viability. The report3
stated that taxpayers, not ratepayers, should bear the cost of law enforcement
operations that track broader crimes committed through the mail. Further, in 2009, the
2
  GAO High-Risk Series: Restructuring the U.S. Postal Service to Achieve Sustainable Financial Viability
(Report Number GAO-09-937SP, dated July 28, 2009).
3
  Report of the President’s Commission on the U.S. Postal Service, Embracing the Future, Making the Tough
Choices to Preserve Universal Mail Service, July 31, 2003.

                                                       10
New Approaches to Reduce Costs                                                                 FF-AR-11-009



Postal Service commissioned an independent mission review study on the Postal
Inspection Service’s programs and activities4 that identified a number of functions that
Postal Service law enforcement personnel do not need to perform. It determined that
nearly 40 percent of Postal Inspection Service investigations are not clearly aligned with
the Postal Service but support other needs where benefits to the Postal Service are
difficult to assess. These include investigations in mail fraud, money laundering, identity
theft, child pornography, and administrative investigations. The report recommended the
Postal Service and the Postal Inspection Service clearly align priorities, including
identifying programs that have a substantial connection to the mail.

Postal Service Security Force

The Postal Service security force is administratively under the control of the Postal
Inspection Service and consists of unarmed and armed security personnel. The Postal
Service contracts for unarmed security personnel, whereas it employs its armed security
personnel (including PPOs). These employees consist of postal police managers,
supervisors, and uniformed PPOs who are assigned to Postal Service facilities
throughout the country. PPOs provide perimeter security by controlling access to Postal
Service facilities and patrolling parking lots and loading dock areas, and they escort
high-value mail shipments. Additionally, they make arrests and testify in court on
violations within their assigned authority. As of March 2010, the Postal Inspection
Service maintained a security force of       managers,     supervisors, and     bargaining
unit PPOs.

Stamp Production

The Postal Service purchases an average of 31 billion postage stamps annually through
printing contracts with three suppliers, at an average cost of $66 million over the past
3 fiscal years.5 These suppliers print definitive and commemorative stamps in large
quantities.6 Stamp Services is the department of the Postal Service responsible for
creating, purchasing, distributing, and maintaining adequate quantities of postage
stamps, stationary products, and philatelic products for nationwide sales. Stamp
services:

    Establishes stamp printing quantities by format and the distribution of stamps to
    Postal Service retail units.

    Determines the quantity of stamps to be printed with the suppliers by identifying past
    printing requirements, recent changes in mail volume, and monitoring stamp

4
  Giuliani Security & Safety LLC, Report to the US Postal Service-Mission Review of the U.S. Postal Inspection
Service, dated June 10, 2009.
5
  The number of pieces of accountable paper (including stamps, envelops, and postal cards) shipped and the
corresponding manufacturing costs were as follows: FY 2008 - 37 billion pieces costing $79 million; FY 2009 -
30 billion pieces costing $64 million; and FY 2010 - $26 billion pieces costing $55 million.
6
  Definitive stamps are regular postage stamps that are issued in unlimited quantities and remain on sale until the
rates are increased. Commemorative stamps pay tribute to people and events and are issued in limited quantities
and remain on sale until the official date of withdrawal.

                                                          11
New Approaches to Reduce Costs                                           FF-AR-11-009



      requisitions from stamp distribution offices (SDOs) and stamp distribution centers
      (SDCs).

Since FY 2008, Stamp Services has reduced stamp purchasing costs by
30 percent. Further, the Postal Service recently consolidated its stamp fulfillment
distribution network from 65 SDOs, four Accountable Paper Depositories, and
two stamp services centers into six SDCs and three SDOs.

    Employee Benefits

The Postal Service can provide employee benefits that differ from those provided by
federal agencies. However, benefits cannot be less than those provided to other federal
government employees.7 This audit addresses savings opportunities for the Postal
Service by limiting benefits to those available to other federal employees.

ALE Program – This program provides eligible employees with the opportunity to
receive cash in exchange for leave they will earn during the next leave year.
Accumulated leave and leave accrued during the current leave year cannot be
exchanged under the program. Some bargaining unit agreements provide a leave
exchange program for covered full-time and part-time regular employees. Internal
Revenue Service regulations prevent Postal Service employees from exchanging leave
already earned that exceeds the Postal Service leave carryover limit.

Annual Leave Carryover – Postal Service policy allows employees to carry over annual
leave each year. For Postal Career Executive Service (PCES) employees the ceiling is
unlimited; however, these employees must use at least 2 weeks of leave annually. The
maximum carryover amount for Executive and Administrative Schedule (EAS)
employees is 70 days (560 hours). The maximum leave carryover for bargaining unit
employees is 55 days (440 hours).

Advanced Annual Leave – At the beginning of the leave year, employees are credited
with the total number of annual leave hours they will earn for the leave year. This
advanced leave is available for use but has not yet been earned. Employees who leave
before the end of the leave year are indebted to the Postal Service for unearned annual
leave taken. Deductions are made from the funds due the employees when they
separate. Collections are not required in cases of death or in case of separation due to
disability.

Direct Deposit – The Debt Collection Improvement Act of 19968 requires the
Postal Service use electronic funds transfers for payments. However, the law provides
a provision where the recipient may request a waiver if the recipient does not have an
account with a financial institution or an authorized payment agent. The costs of
disbursing money electronically is $6.74 less per transaction than the costs of printing,
mailing, and processing paper checks.

7
    39 U.S. Code (USC) § 1005.
8
    Public Law 104-134.

                                              12
New Approaches to Reduce Costs                                                               FF-AR-11-009




OBJECTIVE SCOPE AND METHODOLOGY

Our overall objective was to identify new approaches for the Postal Service to find
efficiencies and cost reductions. Specifically, we evaluated:

     Opportunities for efficiencies and cost reductions in the Postal Inspection Service.

     Opportunities for cost reductions in the management of postage stamp production.

     Opportunities for cost reductions in the employee benefits area.

To accomplish these objectives, we performed the following activities:

     Interviewed Postal Inspection Service headquarters personnel, and reviewed
     associated criteria and program outputs and workhours from the Postal Inspection
     Service Integrated Information System (ISIIS) database.

     Reviewed Postal Inspection Service program guidelines as well as laws and
     regulations as they related to the audit objectives. Specifically, we reviewed federal
     statutes and regulations, investigative authorities, policies, and procedures related to
     the mail fraud, child pornography, money laundering, identity theft, and cyber crimes.

     Reviewed Postal Service policies and contract files related to hiring qualifications
     and training requirements for security personnel currently provided by a contract.

     Used the Postal Service’s National Payroll Hour Summary Report, Pay Period 20,
     FY 2009,9 to project the FY 2010 hourly rates for the PPOs.

     Estimated costs for contracting for armed security guards’ hourly rate:

     o Obtained the wage, health, and welfare (H&W) rates for the armed guards based
       on the published FY 2010 Department of Labor Wage Determination.

     o Incorporated supervision10 costs into our calculations.

     o Estimated suppliers’ costs,11 that could include taxes, benefits, oversight, direct
       costs, and training.

     Reviewed Postal Service efforts to better manage its stamp stock inventory and
     expand the Forever stamp program.


9
  This was the last pay period in FY 2009.
10
   The number of supervisors added to the contract was based on the supervisor staffing matrix. Three types of
supervisors: lead officer, sergeant, and lieutenant, who were paid $1 to $3 more than guards’ wages.
11
   Suppliers’ costs (contractors’ markup) are approximately 50 percent of the total cost of labor base pay and H&W,
including independent establishments and government corporations.

                                                         13
New Approaches to Reduce Costs                                                                  FF-AR-11-009



     Discussed with Postal Service Headquarters and field officials the management of
     postage stamps purchasing and destruction and the impacts of expanding the
     Forever stamp program.

     Reviewed the selling trends of stamps and analyzed stamp sales data for FYs 2008
     and 2009 using the Stamp Services System (SSS) and Enterprise Data Warehouse
     (EDW).

     Analyzed data from Postal Service surveys related to stamp destruction for
     FYs 2008 and 2009.

     Analyzed annual leave carryover amounts, ALE amounts, direct deposits, and leave
     balances for current and former employees.

     Benchmarked Postal Service benefits policy with other government agencies.

     Federal Agencies

     o   U.S. Department of Defense (DOD).
     o   Department of Transportation (DOT).
     o   U.S. Department of Agriculture (USDA).
     o   U.S. Department of Veterans Affairs (VA).

     Quasi-Federal Agencies12

     o   Federal Deposit Insurance Corporation (FDIC).
     o   Federal Reserve Board (FRB).
     o   National Credit Union Administration (NCUA).
     o   Office of Thrift Supervision (OTS).
     o   Tennessee Valley Authority (TVA).

This audit was conducted from December 2009 through June 2011 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on different occasions, the last of which was
March 17, 2011, and included their comments where appropriate.

We traced recorded financial transactions contained in the SSS, EDW, and payroll
systems by verifying the computer records to source documents. We determined that
the data used was sufficiently reliable for the purposes of this report.

12
  A quasi-federal agency is a colloquial term used in this report to describe non-traditional federal executive branch
entities, including independent establishments and government corporations.

                                                          14
      New Approaches to Reduce Costs                                                  FF-AR-11-009




      PRIOR AUDIT COVERAGE

                                         Final
  Report Title     Report Number        Report                        Report Results
                                         Date
U.S. Postal        GAO-08-787          7/24/2008   The GAO reported that, although the Postal Service
Service: Data                                      had difficulty measuring outsourcing success, it
Needed to                                          viewed outsourcing as an important strategy for
Assess the                                         achieving cost savings. The GAO recommended the
Effectiveness of                                   postmaster general establish a process to track the
Outsourcing                                        results of outsourcing activities that are subject to
                                                   collective bargaining and report those results to
                                                   Congress. The Postal Service agreed with the
                                                   findings and recommendations but not with providing
                                                   Congress with outsourcing results.
Postal             SA-AR-04-001        4/21/2004   The Postal Inspection Service used several
Inspection                                         methodologies to support its decision to eliminate
Service’s Postal                                   PPOs at six facilities. However, no documentation
Police Officers                                    was available to assess the validity of its
                                                   methodology. The OIG recommended the chief postal
                                                   inspector update, document, and validate the
                                                   methodology. Postal Inspection Service management
                                                   agreed with the recommendation and indicated they
                                                   would substantiate the methodology used.
Stamp              MS-MA-09-002        1/12/2009   The Postal Service initiated efforts to re-engineer its
Distribution                                       accountable paper fulfillment operations to achieve
Operations                                         cost savings. Supply Management was preparing a
                                                   Decision Analysis Report requesting funding to
                                                   implement the results of prior studies in this area.
                                                   Management expected to save between $2 million
                                                   and $14 million annually by consolidating operations.
                                                   We did not make any recommendations.




                                                    15
New Approaches to Reduce Costs                                            FF-AR-11-009



                           APPENDIX B: DETAILED ANALYSIS

Reduce Postal Service Costs for Investigative Activities

The Postal Inspection Service is involved in a number of activities where investigative
responsibility also falls on other federal and local law enforcement agencies. The Postal
Service incurs significant costs for these activities that do not directly support protection
of Postal Service assets, Postal Service employees, or the mail system. Further, by
pursuing work in these areas, we believe the Postal Inspection Service has moved
away from its primary responsibility to protect the Postal Service, secure the nation's
mail system, and ensure public trust in the mail. We identified a number of areas where
other federal law enforcement agencies are responsible for the same criminal
investigations. Although federal law assigns broad investigative authority to the Postal
Inspection Service to investigate postal offenses and civil matters relating to the Postal
Service,13 investigations in these shared areas address broader crimes that, while
having a nexus to the mail, generally improve society as a whole.

The Postal Inspection Service records investigative case information in ISIIS (see
Table 1). This management information system allows the Postal Inspection Service to
track cases jacketed, arrests, and workhours, and collect and report data in connection
with those cases. However, not all related investigative and administrative costs are
tracked in association with these cases. Management told us that it is hard to forecast
program costs, because the case loads change based on the nature of the work.
Additionally, headquarters’ priorities may shift investigative work to other areas from
year to year. However, work in these shared areas, as a percent of the total
investigative time, has remained relatively consistent over the past few years.




13
     39 USC § 404(a)(6).

                                             16
New Approaches to Reduce Costs                                                                 FF-AR-11-009



          Table 1 – Postal Inspection Service FY 2010 Program Workhours
                               as of February 201014
                                              Cases                 Percent of
             Program               Arrests              Workhours
                                             Jacketed              Total Hours
 Theft (Mail & Identity)            1,140       961
 Mail Fraud                          375        316
 Security/Prevention                   1        692
 Prohibited Mail Narcotics           626        553
 Revenue Fraud                        20        140
 Assault                              94        288
 Dangerous Mail Investigations        56        216
 Child Pornography                    53         73
 Homeland Security/National
 Security                              0         84
 Robbery                              20         31
 Administrative Investigations         0         56
 Money Laundering                     28         37
 Money Order Investigations           46         70
 Miscellaneous                        37         80
 Burglary                             22         60
 Cyber Crimes                          3          5
 Fraudulent Workers
 Compensation15                        0         31
               Total                2,521      3,693                    100.0%

Criminal investigations of child exploitation and pornography, and financial crimes
including identity theft, investment and mortgage fraud, and money laundering, contain
a high societal worth, yet often have marginal connection and benefit to the Postal
Service. Further, federal law enforcement agencies count the same statistics when
more than one of them participates in the investigative and arresting activities.16 Of
investigations in shared areas that involved postal inspectors in FYs 2008 and 2009, the
Postal Service recouped less than 0.02 percent of the nearly $17 billion in fines,
restitutions, and recoveries from mail fraud investigations.

We believe that more than 34 percent17 of the Postal Inspection Service’s investigative
activities involve areas where other agencies have primary jurisdiction; casework
benefits all Americans, not solely postal ratepayers; and/or work does not align with the
mission of the Postal Service. The Postal Service may realize significant cost savings

14
   The Postal Inspection Service provided us with workhour information through February 2010. In a follow-up
meeting in late May 2010, Postal Inspection Service personnel confirmed that these program workhour percentages
remained consistent with that presented above.
15
   The OIG has overall responsibility in this area; however; the Postal Inspection Service investigated allegations of
workers’ compensation fraud through an initiative lasting through FY 2010.
16
   Federal Law Enforcement-Information on Use of Investigation and Arrest Statistics, (Report Number GAO-04-411,
dated March 2004).
17
   The 34 percent consists of investigations of identity theft, mail fraud, child pornography, money laundering, and
cyber crimes.

                                                          17
New Approaches to Reduce Costs                                                             FF-AR-11-009



by assessing the benefit to postal ratepayers for criminal investigations in the following
areas.

Mail Fraud

The Postal Inspection Service expended approximately                workhours in mail fraud
investigations through February 2010. However, according to the U.S. Attorney's
Criminal Resource Manual, the FBI has primary investigative jurisdiction for mail fraud.
The investigation of mail fraud is a consumer protection statute originally enacted after
the Civil War to protect citizens from fraud schemes initiated through the mail.18 Mail
fraud is the largest single Postal Inspection Service program area, yet investigations are
not limited to defrauding the Postal Service. These cases are usually ancillary to other
crimes being committed against the public and use of the mail is incidental to the fraud
committed. The Postal Service is not the only carrier of printed and delivered material
covered by the mail fraud statute. In 1994, Congress broadened the application of the
mail fraud statute to matter sent or delivered by any private or commercial interstate
carrier.19 We estimate the total cost to the Postal Service for mail fraud investigations for
FY 2010 was $69 million.

Mail and Identity Theft

The Postal Inspection Service classifies mail and identity theft under the same program
area. Since FY 2007, when internal mail theft investigative responsibility was transferred
to the OIG, all Postal Inspection Service investigations of mail theft involved crimes
external to the Postal Service workforce. The FBI and local law enforcement agencies
have similar authority to investigate theft of mail crimes. However, Postal Inspection
Service officials informed us that due to differing priorities and inadequate resources,
these agencies will not dedicate the same level of investigative effort to mail theft.
Further, all Postal Inspection Service personnel we spoke with mentioned that mail theft
investigations instill a sense of pride about the work they do to protect the image of the
Postal Service. From October 2009 through February 2010, postal inspectors spent
18 percent of their total investigative time on external mail theft, at an estimated cost of
$25 million.

Identity theft is a crime that victimizes people and businesses in every community and
robs victims of their individual freedoms. Identity thieves misuse personal or financial
information to gain something of value, and such crimes facilitate other criminal activity
and affect the economy and security of the U.S.20 Local, state, and federal law
enforcement agencies all conduct investigations of identity theft. The U.S. Secret
Service, though, is the primary federal agency tasked with investigating identity theft
and fraud and its related activities.21 These investigations often involve investigating
other related crimes. The FBI, ICE, and the Postal Inspection Service are also

18
   18 USC §1341.
19
   Public Law 103-322, Title 25, Sec. 250006, Violent Crime Control and Law Enforcement Act of 1994.
20
   Congressional Research Service Report for Congress, Identity Theft: Trends and Issues, January 5, 2010.
21
   U.S. Attorneys Criminal Resource Manual, Title 9, Chapter 9-64.400, False Identification 18 USC § 1028.

                                                        18
New Approaches to Reduce Costs                                                            FF-AR-11-009



empowered to investigate identity theft. The Social Security Administration Office of the
Inspector General might be involved when the crime involves the theft and misuse of
Social Security numbers.

Additionally, the Postal Inspection Service participates in financial crimes task forces
around the country. Members of task forces educate consumers about identity theft
through public awareness campaigns primarily through the Internet. We estimated
Postal Service program area costs for identity theft in FY 2010 to be $28 million.

Child Exploitation

The FBI is the primary investigative agency responsible for crimes against children;
however, several federal agencies, including ICE and the Postal Inspection Service,
investigate child sex exploitation offenses. The Postal Inspection Service has long been
recognized as the leading federal law enforcement agency combating the production
and distribution of child pornography and other crimes exploiting children through the
mail. In the 1980s, the mail was the primary means of distributing child pornography.
Since that time, Internet availability and computer-facilitated crimes against children
have increased dramatically.22 The most recent Bureau of Justice Statistics (BJS)
research shows that the FBI referred about one-half of all sex exploitation suspects to
U.S. Attorneys for prosecution in 2006.23

The Postal Inspection Service investigates sexual exploitation crimes against children
committed through the mail and, when it involves the mail, over the Internet. It
coordinates law enforcement activities with U.S. Attorneys, U.S. Department of Justice
(DOJ) Criminal Division’s Child Exploitation and Obscenity Section, state and local law
enforcement agencies, and advocacy organizations such as the National Center for
Missing and Exploited Children. In addition, to help combat sexual predators and child
pornographers, the Postal Service participates in initiatives such as the DOJ’s Project
Safe Childhood, and Internet Crimes Against Children (ICAC) task forces.

Almost all child exploitation cases investigated by the Postal Inspection Service in
FY 2009 involved the Internet. Our estimate of FY 2010 Postal Service costs for these
investigations was $9 million.

Money Laundering

The Money Laundering Control Act makes it a crime to launder proceeds from unlawful
activities.24 The U.S. Secret Service monitors money laundering activities through other
financial crimes such as financial institution fraud, access device fraud, food stamp
fraud, and counterfeiting of U.S. currency. However, the Postal Inspection Service’s
authority to investigate money laundering violations is controlled by a memorandum of
understanding between the departments of Justice and U.S. Department of Treasury

22
   BJS Bulletin, Federal Prosecution of Child Sex Exploitation Offenders, 2006, NCJ 219412, December 2007.
23
   BJS, NCJ 219412, December 2007.
24
   18 USC § 1956-57, and §1961 (Racketeer Influenced and Corrupt Organizations Act).

                                                       19
New Approaches to Reduce Costs                                                               FF-AR-11-009



and the Postal Service. The Postal Inspection Service investigates financial crimes as
well as concealment of proceeds from illegal acts through money laundering. According
to the Postal Inspection Service, these investigations usually involve the use of postal
money orders. In FY 2010, we estimated the Postal Service spent $3.9 million to
support these investigations.

Summary

By reducing investigative activities to areas directly aligned with Postal Service
operations or mission, the Postal Service may realize annual cost savings of
$77 million. This equates to cost savings of $766 million over the next 10 years.

Combining All Investigative Activities

We estimate the Postal Inspection Service spends approximately 66 percent of their
investigative time conducting investigations directly related to protecting the Postal
Service. The Postal Inspection Service employs 429 staff to support its activities.
Table 2 outlines those duties.

            Table 2 – Professional, Technical, and Administrative Personnel
                                                            Number of
                         Personnel Classification
                                                            Employees
                Program Operations Specialist and Analysts      180
                Technical Services                              124
                Forensic Laboratory Staff                        45
                Administrative Support                           45
                Security                                         20
                Business Operations                              15
                                   Total                        429
                Source: Postal Service Web Complement Information System.

The OIG also employs staff to support its separate investigative duties. We believe
consolidating all investigations into a single law enforcement organization can reduce
support personnel by as much as $146 million over a 10-year period, saving $15 million
annually.25

Reduce Security Force Costs through Contracting

The Postal Service used several methodologies to support the need for PPOs’ presence
at assigned facilities. These methodologies included studies and analyses; professional
judgment based on interviews with local police, Postal Service managers, the Postal
Inspection Service, and security force managers; and recommendations from the most



25
  These savings are an estimate of what could occur over 10 years through attrition. However, the total amount that
could be saved is dependent upon the results of the study recommended in Recommendation 1.

                                                         20
New Approaches to Reduce Costs                                                               FF-AR-11-009



recent security force surveys.26 Although there are definable needs for the armed
security force coverage at these facilities, opportunities exist to reduce the security force
costs by contracting out these security services. For example, based on our analysis,
we determined that using the armed contract security services could save the Postal
Service about $19 and $12 per hour for postal police supervisors and PPOs,
respectively.27 Furthermore, we estimated that contracting out armed security services
would reduce workhours by 73,675 per year.

The Postal Service has no statutory restrictions on the use of armed contract security
guards. The authority for utilization and deployment of staffed security rests solely with
the chief postal inspector in the role of security officer of the Postal Service. In FY 2009,
the postal security force salary and benefits totaled approximately $52.5 million
nationally. Additionally, the Postal Service incurred approximately $24.5 million for the
unarmed contract security services. Unarmed contract security guards were assigned to
the low-risk posts where they assist in maintaining a safe work environment. The
average hourly rate for unarmed contract guards was approximately one-half that of the
fully loaded rates of postal police.28 Although using unarmed contract security guards
has resulted in significant savings, the Postal Service has not conducted any formal
studies to determine the cost benefit of using armed contract security guards.

We estimated costs for contracting armed security services and determined the
weighted average hourly rate for the armed contract security services would be $34.23,
including supervision costs. In comparison, the fully loaded rates for postal police
supervisors and PPOs are $53.40 and $45.76 per hour, respectively.

Our analysis of postal security workhours also indicated the Postal Service could be
more efficient in its security operation by contracting for the services. For example,
contracted security guards are generally provided under terms of a contract that
includes supervision.29 The Postal Service uses postal police supervisors to provide
direction or backup to PPOs. As of March 2010, the Postal Service had          supervisors
and      PPOs assigned to         posts/patrols in    U.S. cities and Puerto Rico.
However, because of staffing shortages, the Postal Service has cut back on hours or
eliminated some of the 166 posts/patrols. As a result, we estimate               workhours
per year are required to perform the security function by these employees.

In comparison, we estimated the contract hours based on the original staffing hours of
the posts/patrols. Additionally, we assumed the contractors would be deployed during
regular business hours at those posts/patrols that have been eliminated. These
assumptions would assure the security of Postal Service employees will not be


26
   These methodologies include the Manpower Allocation Model, Facility Risk Rating Model, and Physical Security
Surveys.
27
   FY 2010 projected rates.
28
   In FY 2009, the fully loaded hourly rates for postal police supervisors and PPOs were $49.91 and $42.77,
respectively. The average hourly rate, including supervision costs, for unarmed contract guards was $23.57.
29
   Except in cases of imminent safety or security concerns, the Postal Service security force managers or supervisors
will not directly supervise contract personnel to avoid co-employment liability.

                                                         21
New Approaches to Reduce Costs                                                               FF-AR-11-009



compromised. As a result, we believe armed contract security guards would result in an
annual reduction of 73,675 hours to 963,924 hours annually at these posts.

Personnel Qualifications

We reviewed the Postal Service policies and contract statement of work related to hiring
qualifications and training requirements for PPOs and contracted security guards. As
shown in Table 3, we found that the background and training requirements for
contracted security guards are compatible with those for PPOs. However, we noted that
though the personnel qualifications are similar and contracted security guards would
have many of the same powers given to the PPOs, contract security guards would be
limited to stopping offenses committed in their presence on Postal Service property.30

                   Table 3 – Prerequisite Skills and Experience
  Prerequisite Skills
                                    PPOs                    Contracted Guards
    And Experience
 Age                    21 years of age or older.     21 years of age or older.
 Experience             Employed as career Postal     Have previous satisfactory
                        Service employee for 1 year experience as a security
                        and achieve a passing score guard or demonstrate
                        on the PPO entrance exam.     satisfactory work
                                                      performance.
 Physical Condition     Pass physical assessment      In good general health without
                        test.                         physical defects or
                                                      abnormalities that would
                                                      interfere with the performance
                                                      of duties.
 Security               Postal Service sensitive      Postal Service sensitive
                        clearance.                    clearance.
 Training               Pass an 8-week in-residence Have satisfactorily completed
                        PPO basic training program. the basic training as described
                                                      in the contract statement of
                                                      work.
 Citizenship            U.S. citizen.                 U.S. citizen or a permanent
                                                      resident alien.
Source: Standard Position Description for bargaining unit PPOs and Statement of Work for Security
Guards.

PPOs have previous experience as Postal Service employees and have an
understanding of the culture and business process. Additionally:

     There is an expectation of permanency, stability, quality, and loyalty of the PPOs.



30
  If designated by the Board of Governors, contract security forces could exercise a modicum of authority on Postal
Service property, although they would be barred from conducting investigations.

                                                         22
New Approaches to Reduce Costs                                                                FF-AR-11-009



     PPO’s training can be held to uniform standards consistent with Postal Service
     requirements.

     PPO’s performance and evaluation in accordance with prescribed Postal Service
     policies and discipline can be controlled and administrated by management.

On the other hand, contracted security guards provide a more flexible and efficient
service to the Postal Service. Although postal police managers have expressed
concerns regarding the contract guards’ turnover rate and line authority issues,31 we do
not believe these are matters that would prevent contract security guards from
satisfactorily performing Postal Service security force duties.

Current Federal Government Environment

As of FY 2010, other government agencies such as the Federal Protective Service
(FPS) had about 15,000 contract security guards deployed at about 2,360 federal
facilities across the country.32 GAO recently reported that FPS faces challenges with
overseeing its contracted guards.33 For example, FPS had not taken actions against
some contracted guards who did not have valid certifications and training records;
furthermore, FPS did not always evaluate contractors’ performance as required. As a
result, FPS hampered its ability to protect federal facilities. FPS is now rethinking its
strategy to use contracted security services at all federal facilities.

Although the Postal Service should consider using contract staffing to replace postal
security force positions, the relationship between the Postal Service and contractors
needs to be strengthened. Moreover, the procurement process must be designed in a
way that the quality of training, personnel, management, and operations are properly
considered in the terms of the contracts. By using armed contract security services, the
Postal Service could reduce security force costs of approximately $80 million over the
next 10 years.

Reduce Postage Costs by Expanding the Forever Stamp Program

The Postal Service has opportunities for savings in printing, managing, and destruction
costs by expanding the Forever stamp program. For example, stamp inventories could
be better managed by avoiding the need to destroy stamps whose denomination is no
longer needed. We calculated that the Postal Service will destroy approximately 48,000
of the 3,000 and 10,000 First-Class 1-ounce denominated stamp coils purchased in
FYs 2008 and 2009. We estimate the printing costs for these products at about

31
   The Postal Inspection Service currently uses the postal police managers as contracting officer representatives. The
postal police managers certify monthly invoices, observe delivery of security services, and work with the contractor’s
managers on delivery or service issues. For most issues, the postal police managers have to contact the contractors’
representative and have them give the contract security officers the non-emergency commands.
32
   Although FPS does not use guards at the remaining 6,700 facilities under its protection, it uses other security
countermeasures such as cameras and perimeter lighting to help protect these facilities.
33
   Federal Protective Service’s Contract Guard Program Requires More Oversight and Reassessment of Use of
Contract Guards (Report Number GAO-10-341, dated April 2010).

                                                         23
New Approaches to Reduce Costs                                                              FF-AR-11-009



$445,000. Additionally, the Postal Service’s readiness and flexibility to respond to
changes in economy and customer behavior will be increased.

The Forever stamp continues to be very popular with customers and has begun to
dominate dramatically the market for stamps. It is conceivable that within a few years,
the vast majority of stamp purchases will be the Forever stamp. Because of the impact
the Forever stamp has had on purchases of denominated stamps, the Postal Service
has discontinued printing other denominated stamps in booklet format. Further, the sale
of the Forever stamp in FY 2008 was 30 percent of all First-Class stamps sold. In
FY 2009, the sale of the Forever stamp increased to 41 percent of all First-Class
stamps sold.34 Survey results provided by Postal Service noted that 62 percent of stamp
customers say they use the Forever stamp regularly. We received positive responses
from our blog35 for expanding the Forever stamp program. If the Postal Service moved
to converting coils of 3,000 and 10,000 First-Class 1-ounce stamps to the Forever
stamp, we estimate that the Postal Service will save approximately $215,000 annually,
or $2.2 million over the next 10 years.

Reduce Employee Benefit Costs by Aligning Benefits with Other Federal
Agencies’ Policies

The Postal Service offers extra benefits to its employees to maintain compensation and
benefits comparable to the private sector, as mandated by law.36 In some cases, as
discussed below, these benefits are more generous than those provided to the rest of
the federal and quasi-federal agencies’ employees. These benefits include ALE for
cash, annual leave carryover limits, advanced leave, and non-mandatory use of direct
deposit. Changes to these programs would align Postal Service benefits with other
federal agencies’ policies and reduce costs. In total, we estimate these changes could
save approximately $43 million annually or as much as $433 million over the next 10
years.

     The Postal Service’s ALE program was not comparable to the federal and quasi-
     federal agencies we benchmarked. Specifically, the program was not offered to the
     other federal employees.

        In FY 2010, the Postal Service paid more than 17,000 employees $65.6 million
        under the ALE program.

        In FY 2009, the Postal Service paid nearly 18,000 employees $66.7 million under
        the ALE program.

     We estimate the Postal Service could save approximately $42 million annually or
     $421 million over 10 years, if it did not offer this benefit to its employees.

34
   Data obtained from the Retail Data Mart (RDM), comparing sales for booklet, coils, definitive and commemorative
stamp sales in FYs 2008 and 2009.
35
   How Can the Postal Service Reduce the Costs Associated with Postage Stamps?, posted on January 25, 2010.
36
   39 USC § 1003.

                                                        24
New Approaches to Reduce Costs                                                              FF-AR-11-009




     The Postal Service’s earned annual leave amount for bargaining37 and non-
     bargaining38 employees was comparable to the federal and quasi-federal agencies
     we benchmarked. However, we did note that the annual leave carryover amounts for
     the Postal Service employees were higher than the federal and quasi-federal
     agencies we benchmarked against. We estimated the Postal Service could save
     approximately $600,000 per year or $6.3 million over 10 years by capping annual
     leave carryover at 240 hours per year for bargaining, non-bargaining, and EAS
     employees and 720 hours per year for PCES employees, amounts that would be
     comparable to the rest of the federal and quasi-federal agencies.

     The Postal Service’s policy of advancing annual leave resulted in more than 88,000
     current and former employees using advance leave of more than $81 million without
     the employees either earning the leave back or reimbursing the Postal Service
     during LYs 2008 and 2009.39 If the Postal Service stopped advancing annual leave,
     we estimate it could save approximately $400,000 per year or $3.9 million over 10
     years.

     Postal Service employees are given the opportunity to have their paychecks directly
     deposited in their bank accounts as are other federal government employees.
     However, the Postal Service did not require direct deposits for employees as
     mandated by the other federal and quasi-federal agencies we benchmarked against.
     Specifically, we identified 136,222 of 688,139, or 20 percent, active employees who
     did not have their pay directly deposited. According to Postal Service Human
     Resources personnel, the option to receive a payroll check was part of the terms
     and conditions of employment. Currently, the Postal Service is reviewing the concept
     of providing direct debit cards to employees who receive paychecks. We estimated
     the Postal Service could have saved approximately $1.9 million over 2 years if its
     direct deposit policy had been the same as most other federal and quasi-federal
     agencies benchmarked.

Table 4 provides a comparison of these activities to federal and quasi-federal agencies
we benchmarked against.




37
   Bargaining employees are represented by labor unions that negotiate with the Postal Service for wages, hours, and
other terms and conditions of employment. These employees include city and rural letter carriers, clerks, mail
handlers, special delivery messengers, maintenance employees, and motor vehicle operators.
38
   Non-bargaining employees are career and non-career employees in supervisory professional, technical, clerical,
administrative and management positions in the EAS who are not subject to collective bargaining agreements.
39
   The 2008 and 2009 leave years are for the period January 5, 2008, through January 1, 2010.

                                                        25
New Approaches to Reduce Costs                                                                 FF-AR-11-009




       Table 4 – Comparison of the Employee Benefits as of January 1, 2010
                                             Annual
                                  Annual      Leave
                                  Leave     Carryover
                                Carryover     Below      Advance       Direct
     Agency           ALE        PCES40      PCES41        Leave      Deposit
Postal Service        Yes       Unlimited    560/44042     Yes43      Voluntary
FDIC                   No               240       240       No44     Mandatory
FRB                    No               360       360       Yes      Mandatory
NCUA                   No               720       240        No      Mandatory
OTS                    No               720       240        No      Mandatory
TVA                    No               720       240        No      Mandatory
DOD                    No               720       240        No      Mandatory
DOT                    No               720       240        No      Mandatory
USDA                   No               720       240        No      Mandatory
VA                     No               720       240        No      Mandatory
Source: Employee and Labor Relations Manual, Issue 22, October 2010; Handbook EL-380, Postal
Career Executive Service, November 2007; and Human Resource personnel at other federal agencies
listed.

The following provides additional details associated with each of the benefits outlined
above.

Annual Leave Exchange

The Postal Service’s ALE program for its employees was not offered by other
comparable federal and quasi-federal agencies we benchmarked. Table 5 shows the
amount of leave exchanged in FYs 2009 and 2010:

                            Table 5 – ALE Paid in FYs 2009 and 2010
                                                    Number of
                                      Number of      Annual
                           Year                                  Amount Paid
                                      Employees Leave Hours
                                                   Exchanged
                          FY 2009         17,875      1,857,253   $66,747,069
                          FY 2010         17,211      1,794,255   $65,636,034
                         Source: Postal Service’s Payroll Application System.




40
   For other agencies, PCES equivalent is called Senior Executive Service.
41
   For other agencies, Below PCES is called General Schedule.
42
   Postal Service has two categories: EAS and bargaining employees.
43
   Postal Service policy is to advance annual leave to full-time and part-time career employees at the beginning of the
leave year.
44
   All federal and quasi-federal agencies benchmarked, except FRB employees, may request advance leave on a
case-by-case basis.

                                                          26
New Approaches to Reduce Costs                                        FF-AR-11-009



We estimated the Postal Service could save $421 million over 10 years with changes to
the ALE policy.

Annual Leave Carryover

The Postal Service’s earned annual leave amount for bargaining and non-bargaining
employees was comparable to the federal and quasi-federal agencies we benchmarked.
However, we did note that the annual leave carryover amounts for Postal Service
employees differed from the federal and quasi-federal agencies we benchmarked
against.

We noted 183 of 765 PCES and other employees exceeded the maximum carryover for
other government agencies’ executive level personnel of 720 hours. Further, we
identified more than 29,000 EAS and 98,000 bargaining employees who exceeded the
maximum carryover for other government agencies’ staff and manager level personnel
of 240 hours. By capping the annual leave carryover similarly to the rest of the federal
government, we estimated the Postal Service could save approximately $600,000
per year or $6.3 million over 10 years.

Advanced Annual Leave

The Postal Service policy of advancing annual leave resulted in more than 88,000
current and former employees owing the Postal Service more than $81 million as of
January 1, 2010, the end of the 2009 LY (see Table 6). The employees neither earned
the leave nor reimbursed the Postal Service, where applicable, before the end of the
leave year. Postal Service management stated they were reluctant to discontinue the
advanced leave program, because doing so could affect operations and employee
morale. Although we understand management’s concerns, the Postal Service could
save $400,000 per year or $3.9 million over 10 years in interest by discontinuing the
program. Additionally, the Postal Service could have avoided forgiving as much as
$12.9 million in advanced annual leave debts for personnel who died or retired with
disabilities.

                  Table 6 – Advanced Annual Leave Outstanding
                                     Number of      Hours
                                                               Value
                                     Employees      Owed
      Current Employee Outstanding       62,125    1,668,488 $42,000,000
      Balances as of the End of the
      2009 LY
      Former Employee Balances           26,416    1,585,334  39,500,000
      When Service Ended in 2008
      and 2009 LYs
                   Total                 88,541    3,253,822 $81,500,000
     Source: Postal Service’s Payroll Application System.




                                                  27
New Approaches to Reduce Costs                                                                     FF-AR-11-009




                         Table 7 – Additional Information
                                   Number of       Hours
                                                                                               Value
                                   Employees       Owed
Current Employees with                  26,022     961,913                                 $24,200,000
Outstanding Balances at The End
of LYs 2008 and 2009
Employees Who Ended Service in           6,088     514,642                                 $12,916,190
LYs 2008 and 2009 Whose Debts
Were Forgiven45
Employees Who Ended Service in          17,294     961,990                                 $23,900,000
LYs 2008 and 2009 Whose Debts
Were in Collection
Source: Postal Service’s Payroll Application System.

Direct Deposit

Although the Postal Service provides bargaining and non-bargaining employees the
opportunity to have their paychecks directly deposited in their bank accounts, they are
not required to use direct deposit like other federal and quasi-federal agencies we
benchmarked against. Specifically, we identified 136,222 of 688,139 (20 percent) active
employees who did not have their pay direct deposited. According to Postal Service
personnel, the option to receive a payroll check was part of the terms and conditions of
employment. Currently, the Postal Service is reviewing the concept of providing direct
debit cards to employees who receive paychecks. We estimated the Postal Service
could have saved nearly $1 million a year if its direct deposit policy had been consistent
with other federal and quasi-federal agencies benchmarked against.




45
   In the case of disability retirements or death of the employee, the Postal Service did not initiate collection actions
for overdrawn annual leave totaling $12.9 million. Although costly, this policy is consistent with Office of Personnel
Management policy.

                                                            28
New Approaches to Reduce Costs                                                                 FF-AR-11-009



                                 APPENDIX C: MONETARY IMPACTS

                                         Funds Put to Better Use46

                                    Finding                                   Amount
                      Reduce Postal Service Costs for                         $765,597,535
                      Investigative Activities
                      Consolidate Investigative Activities                      146,099,773
                      Into One Law Enforcement
                      Operation
                      Reduce Security Force Costs                                 79,935,157
                      Through Contracting
                      Reduce Postage Costs By                                      2,153,111
                      Expanding the Forever stamp
                      Program
                      Reduce Employee Benefit Costs by                          432,870,254
                      Aligning Benefits With Other
                      Federal Agencies Policies
                                     Total                               $1,426,655,83047

Reduce Postal Service Costs for Investigative Activities

Limiting investigative activities to work directly benefiting ratepayers would provide the
Postal Service funds for other operating activities. Further, combining all investigative
activities would result in additional savings. We calculated the related monetary impact
as $912 million based on Postal Inspection Service labor rates and work year factors for
FY 2010.

                                                                                        Amount
                   Reducing Investigative Activities Costs48
                                                                                      (in millions)
                Postal Inspector Costs                                                        $64.7
                Related Postal Inspection Service Overhead                                      11.8
                Consolidate Investigative Activities                                            14.6
                Average Annual Savings                                                        $91.1
                Present Value of Investigative Activities Funds                             $911.7
                Put to Better Use for a 10-Year Period49




46
   Funds that could be used more efficiently by implementing recommended actions.
47
   This appendix recognizes monetary impact for the four areas listed using present value computations.
48
   We determined 34.6 percent of Postal Inspection Service investigative workhours benefits all Americans
49
   Using the Postal Service’s current cost of capital rate of 3.875 percent, OIG policy allows monetary impact to be
calculated for a 10-year period.

                                                          29
New Approaches to Reduce Costs                                                             FF-AR-11-009



Reduce Security Force Costs through Contracting

Using similar factors as above, we determined the Postal Service could realize annual
savings of $9.5 million when the current contract expires in April 2012.

                                                                                   Amount
                          Postal Security Force Costs
                                                                                 (in millions)
               Postal Service Security Force50                                             $42.1
               Less Contract Security Force Costs51                                         32.6
               Net Average Annual Savings                                                   $9.5

               Present Value of Security Force Costs for a                                 $79.9
               10-Year Period

Reduce Postage Costs by Expanding the Forever Stamp Program

Excess stamp stock inventory costs the Postal Service in printing costs. We based the
related monetary impact of $215,000 annually, or $2.2 million over 10 years, assuming
a conversion of over produced stamps to the Forever stamp.

                                                                                  Amount
                     Costs of Over Purchased Stamps
                                                                                (in millions)
               Printing Costs FY 200852                                                   $0.28
               Printing Costs FY 200953                                                   $0.17
               Net Average Annual Savings                                                 $0.22
               Present Value of Stamp Program Funds Put                                   $2.20
               to Better Use for a 10-Year Period

Reduce Employee Benefit Costs by Aligning Benefits with Other Federal
Agencies Policies

Changes to annual leave exchange, annual leave carryover, advanced annual leave,
and direct deposit policies would align Postal Service benefits with other
federal agencies’ policies and reduce costs. In some cases, these changes will result in
additional replacement costs at a higher of level pay to cover those employees out on
leave. In total, these changes could save approximately $43 million annually, or as
much as $433 million over the next 10 years.




50
   We estimated annual security hours at the national level for PPOs and supervisors using March 2010 data.
51
   We estimated that the average hourly rate for armed contract security services was $34.23; however, we used
$35.00 for our calculation to provide for more conservative estimated cost savings.
52
   We compared the inventory received from suppliers in SSS to the stamp sales in the RDM.
53
   We applied the average daily sales for stamps currently on sale.

                                                        30
New Approaches to Reduce Costs                                                             FF-AR-11-009




                                                                                  Amount
                        Reduction in Employee Benefits
                                                                                (in millions)
                    Annual Savings on Annual Leave                                        $42.1
                    Exchange
                    Annual Interest Savings on Annual Leave                                   0.6
                    Carryover54
                    Annual Interest Savings on Advanced                                       0.4
                    Annual Leave55
                    Net Annual Savings                                                     $43.1

                    Two-Year Costs for Printing and Mailing                                 $1.9
                    Payroll Checks56

               Present Value of Employee Benefit Costs                                     $433
               Put to Better Use for a 10-Year Period




54
   We averaged the hourly rate for all PCES and EAS employees to determine the value of annual leave balances
over other federal agencies limit.
55
   We used the average of the FYs 2008 and 2009 outstanding balance of $23.9 million to calculate the interest
savings.
56
   We reduced cost estimates by 10 percent to account for employees without bank accounts.

                                                       31
New Approaches to Reduce Costs                            FF-AR-11-009



                      APPENDIX D: MANAGEMENT’S COMMENTS




                                     32
New Approaches to Reduce Costs        FF-AR-11-009




                                 33
New Approaches to Reduce Costs        FF-AR-11-009




                                 34
New Approaches to Reduce Costs        FF-AR-11-009




                                 35
New Approaches to Reduce Costs        FF-AR-11-009




                                 36
New Approaches to Reduce Costs        FF-AR-11-009




                                 37
New Approaches to Reduce Costs        FF-AR-11-009




                                 38
New Approaches to Reduce Costs        FF-AR-11-009




                                 39
